TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Taxpayer Advocate Service Needs to
                       Improve Its Processing of Economic
                                  Burden Cases



                                              April 21, 2008

                                Reference Number: 2008-10-088




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return Information
 3(d) = Identifying Information – Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 21, 2008


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Taxpayer Advocate Service Needs to
                             Improve Its Processing of Economic Burden Cases
                             (Audit # 200610049)

 This report presents the results of our review to determine whether the Taxpayer Advocate
 Service (TAS) has an effective system to process taxpayer requests for relief due to economic
 burden. This audit was part of our Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Economic burden cases typically involve taxpayers who are requesting TAS assistance because
 an Internal Revenue Service (IRS) action or inaction is creating (or potentially creating) a
 financial hardship. Over 50 percent of the economic burden cases we sampled had errors and
 delays that might have burdened taxpayers and/or affected Federal Government revenues. Many
 of these taxpayers, who had been unable to receive necessary assistance from the IRS, were
 potentially further burdened or experienced potential violations of their rights or privacy by the
 TAS.

 Synopsis
 Economic burden cases are the most critical and time-sensitive cases in the TAS inventory. In
 most cases, the taxpayer has asked the TAS to stop an IRS enforcement action (e.g., a wage levy)
 or to expedite a process (e.g., issuing a refund from a tax return being audited). Many of these
 taxpayers have previously tried, unsuccessfully, to obtain the needed assistance directly from the
 IRS. Given the potentially urgent nature of its cases, the TAS has been granted special
 authorities and tools to assist taxpayers who might have urgent financial needs. However, we
 noted significant inconsistencies in how these tools and authorities were used.
                             The Taxpayer Advocate Service Needs to Improve Its
                                   Processing of Economic Burden Cases



Often, the details of a taxpayer’s burden were not documented in the case history, so we could
not determine if the taxpayer received the most appropriate type of service. We also found it
difficult to determine why some taxpayer cases were afforded priority handling and others were
not. In addition, although the TAS has formal guidelines to ensure that cases are processed
accurately, completely, and in a timely manner, more than 50 percent of the cases we sampled
had errors and delays that might have burdened taxpayers and/or affected Federal Government
revenues. We found evidence of untimely actions, technical errors, and procedural errors. In
some instances, the taxpayer’s issue was not fully addressed. Further, some taxpayers might
have had their rights or privacy violated because the TAS bypassed authorized representatives,
made unauthorized disclosures to third parties, did not pay the proper interest on refunds, or
denied claims erroneously.
In addition to processing errors, we identified administrative issues that require attention. For
example, a significant number of cases were miscoded, which might preclude the TAS from
identifying systemic problems that affect large groups of taxpayers. Further, the TAS’ internal
quality controls appeared to have reported an overall quality rating significantly higher than of
that in our audit results. We were unable to determine the reasons for the difference within the
scope of this audit and plan to conduct a separate audit in this area in the future.

Recommendations
We recommended that the National Taxpayer Advocate:
       •    Develop and implement formal procedures to identify and correct errors on account
            adjustments and manual refunds. In addition, the National Taxpayer Advocate should
            conduct regular reviews before cases are closed to ensure that all taxpayer issues are
            addressed.
       •    Update Internal Revenue Manual Part 13 to require that case advocates1 document the
            details of the taxpayer’s economic burden as part of the initial case analysis. When
            reasonably practical, case advocates should recommend granting the taxpayer full,
            partial, or no relief and document the decision.
       •    Update the Memorandum on Early Intervention Review Guidelines to require that the
            taxpayer’s financial circumstances be considered as part of the “best approach” for each
            case.
       •    Update the Request for Taxpayer Advocate Service Assistance (And Application for
            Taxpayer Assistance Order) (Form 911) to require that the initiator include a complete
            description of the taxpayer’s problem and the burden it is creating.


1
    Case advocates work directly with taxpayers and their representatives to resolve TAS cases.
                                                                                                     2
                           The Taxpayer Advocate Service Needs to Improve Its
                                 Processing of Economic Burden Cases



     •   Analyze a sample of internally referred Forms 911 to assess the accuracy of the case
         coding and the adequacy of the problem description. Based on this analysis, the
         National Taxpayer Advocate should consider requiring that the business units conduct
         managerial reviews on all cases referred to the TAS.
     •    Provide additional training to case advocates, management, and intake personnel to
          explain appropriate use of the Primary Core Issue Code.2

Response
The National Taxpayer Advocate agreed with five of the six recommendations in our report.
Management acknowledged the importance of processing economic burden cases accurately and
in a timely manner. The TAS agreed to formalize review procedures on account adjustments,
manual refunds, and pre-closure reviews and intends to incorporate these policies into a
Managers Guide that will be included in Internal Revenue Manual Part 13 in Fiscal Year 2008.
In addition, the TAS will use “lead” case advocates to perform certain non-evaluative reviews,
including pre-closure reviews. The National Taxpayer Advocate agreed to require management
to consider the taxpayer’s financial circumstances as part of their early intervention reviews.
The TAS agreed to change the wording on Form 911 to allow taxpayers to provide the details of
their economic burden and the impact of an IRS action or inaction. The TAS also agreed to
analyze a sample of internally referred Forms 911 for proper coding and consider requiring the
IRS operating divisions to conduct reviews of cases referred to the TAS. Finally, although
management believed that it was often difficult to provide an exact designation for the Primary
Core Issue Code when multiple issues are involved, they agreed to provide training to TAS
personnel on the appropriate use of these Codes.
However, the National Taxpayer Advocate did not agree with Recommendation 2 to update
Internal Revenue Manual Part 13 to require that case advocates document the pertinent details of
the taxpayer’s economic burden in the case history of the Taxpayer Advocate Management
Information System (TAMIS).3 The TAS stated that “the details of the taxpayer’s economic
burden are already documented by the case advocate” either in the TAMIS history or other
TAMIS screens. Additionally, case advocates are already required to develop an initial action
plan that should be modified as the case progresses.
Although the TAS agreed with most of our recommendations, the National Taxpayer Advocate
questioned the types of errors we identified and indicated that our auditors applied standards


2
  The Primary Core Issue Code identifies the most significant issue, policy, or process causing the taxpayer’s
problem.
3
  This is a database dedicated to recording, controlling, and processing taxpayer cases. It is used by the TAS to
analyze core tax issues, laws, policies, and internal IRS processes.
                                                                                                                    3
                      The Taxpayer Advocate Service Needs to Improve Its
                            Processing of Economic Burden Cases



different from those used by the TAS. Management’s complete response to the draft report is
included as Appendix V.

Office of Audit Comment
We acknowledge the tremendous challenges faced by case advocates in their day-to-day
handling of some of the most difficult and time-sensitive issues facing IRS employees.
However, we believe that the conclusions and recommendations in this report are valid. While
we recognize that there are procedures for describing the taxpayer’s hardship in the TAMIS, we
often found in our exception cases that there was little or no information in the TAMIS to help
clarify the details of the taxpayer’s circumstances. Consequently, we could not always
determine whether the TAS had provided the most appropriate types of service to taxpayers.
Further, we believe that better documentation in the electronic case file (TAMIS) will help TAS
management evaluate the quality of casework and ultimately provide better service to taxpayers.
The TAMIS should include some basic details about the taxpayer’s situation and a description of
any research conducted so users can assess whether the action plan and case actions are
appropriate. Taxpayers often contact other employees (such as the National Taxpayer Advocate
toll-free telephone line) to obtain information or status reports on their cases. These employees
would not have access to the actual paper files, only the TAMIS history. Finally, closed TAS
cases can, on occasion, get lost. Of the 250 cases we sampled, 4 case files were missing and
14 were incomplete.
The National Taxpayer Advocate decided not to require the IRS business units to conduct
managerial reviews of all cases referred to the TAS. We believe that the TAS should reconsider
this decision after it conducts an analysis of a sample of referrals from the IRS business units.
Further, TAS management stated that they disagreed with approximately 35 percent of our initial
exceptions. We are unsure why the TAS is now disagreeing with some of the exceptions it had
agreed to during the audit. We held several meetings with TAS representatives and presented
them with an in-depth analysis of the initial errors we identified. During these meetings, we
agreed with the TAS on some issues and reduced the total number of errors accordingly.
Ultimately, we chose to focus our report on the most significant types of errors we had identified
on 177 cases. Of the 177 cases, 141 contained errors that potentially affected taxpayers or
Federal Government revenues, and the TAS agreed with us on 86 percent of these cases.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.



                                                                                                    4
                                The Taxpayer Advocate Service Needs to Improve Its
                                      Processing of Economic Burden Cases




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Taxpayer Advocate Service Processing Errors Affected
          Taxpayers and Revenues...............................................................................Page 3
                     Recommendation 1:........................................................Page 10

          More Specific Guidance Would Improve Case Processing
          and Help the Taxpayer Advocate Service Identify Systemic
          Issues.............................................................................................................Page 11
                     Recommendation 2:........................................................Page 13

                     Recommendations 3 and 4: ..............................................Page 14

                     Recommendations 5 and 6: ..............................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Management’s Response to the Draft Report ......................Page 22
        The Taxpayer Advocate Service Needs to Improve Its
              Processing of Economic Burden Cases




                  Abbreviations

FY          Fiscal Year
IRS         Internal Revenue Service
TAS         Taxpayer Advocate Service
TAMIS       Taxpayer Advocate Management Information System
                           The Taxpayer Advocate Service Needs to Improve Its
                                 Processing of Economic Burden Cases




                                             Background

The Taxpayer Advocate Service (TAS) is an independent organization within the Internal
Revenue Service (IRS) whose mission is to help taxpayers resolve problems with the IRS and to
recommend changes to prevent future problems. The TAS also assists taxpayers who are
experiencing economic harm because of the manner in which Federal tax laws are administered.
The goals of the TAS are to protect individual and business taxpayer rights and to reduce
taxpayer burden.
Although there are other ways in which a taxpayer might qualify for TAS assistance, most
taxpayers accepted into the program are classified as either economic burden or systemic burden
cases. Economic burden cases are broadly defined as those in which an IRS action or inaction
has caused or will cause financial difficulties or a hardship for the taxpayer. Systemic burden
cases are those in which an IRS process, system, or procedure has failed to operate as intended
and, as a result, the IRS has failed to respond to or resolve a taxpayer issue in a timely manner.
Economic burden cases are the most critical and time-sensitive cases in the TAS inventory. In
most cases, the taxpayer is asking the TAS to stop an IRS enforcement action (e.g., a wage levy)
or to expedite a process (e.g., issuing a refund from a tax return being audited). Many of these
taxpayers have previously tried, unsuccessfully, to obtain the needed assistance directly from the
IRS. Given the potentially urgent nature of these cases, the TAS requires that initial actions be
completed within 3 workdays of case receipt.
In January 2006, the TAS developed broader guidelines for economic burden cases because of
some confusion about the types of cases it should accept. In the past, taxpayers were required to
prove they were experiencing an economic hardship at the time of case acceptance by providing
documentation such as an eviction notice. With implementation of the broader guidelines, the
TAS no longer requires taxpayers to provide documentation to substantiate their economic
hardships because doing so could cause unnecessary burden and limit taxpayer access to the
program. Currently, the TAS will accept a case based on the taxpayer’s oral statement, but it
might need the taxpayer to provide documentation to support his or her economic burden at a
later date.
The majority of the TAS workload comes from taxpayers who call the IRS and National
Taxpayer Advocate toll-free telephone lines, which are staffed primarily by employees in the
Wage and Investment Division.1 In Fiscal Year (FY) 2006, TAS case receipts increased
considerably and continued to rise in FY 2007. Economic burden cases accounted for


1
 In Fiscal Year 2006, the TAS received 80.8 percent of its cases from the IRS toll-free telephone lines and the
National Taxpayer Advocate toll-free telephone line.
                                                                                                             Page 1
                           The Taxpayer Advocate Service Needs to Improve Its
                                 Processing of Economic Burden Cases



approximately one-third of the total inventory. Figure 1 shows that economic burden cases were
a significant factor in the overall increase in inventory.

    Figure 1: Economic Burden Case Receipts As a Percentage of TAS Inventory
                                                        TAS Case Receipts
            Fiscal Year         Economic
                                                      Total
                                 Burden                                     Percentage of Total
                                                     Receipts
                                Receipts                                         Receipts
            2007                  86,245               247,811                      35%
            2006                  72,434               242,146                      30%
            2005                  44,976               198,089                      23%
          Source: Taxpayer Advocate Management Information System (TAMIS)2 database query, dated
          November 1, 2007.

We performed this review at the IRS TAS National Headquarters office in Washington, D.C.,
and the TAS field office in Denver, Colorado, during the period September 2006 through
January 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
 This is a database dedicated to recording, controlling, and processing taxpayer cases. It is used by the TAS to
analyze core tax issues, laws, policies, and internal IRS processes.
                                                                                                             Page 2
                      The Taxpayer Advocate Service Needs to Improve Its
                            Processing of Economic Burden Cases



Management informed us that the TAS also does not have a formal policy to review all cases for
completeness or accuracy before closure. We observed that some offices conducted a review
prior to case closure, but most offices did not.

Some case actions were untimely
In addition to making technical errors, the case advocates took some actions late and missed
established target dates. Internal Revenue Manual Part 13 establishes time periods for
completing certain case actions such as making the initial taxpayer contact, completing followup
actions, and responding to correspondence received. Also, when communicating with taxpayers,
case advocates must establish “Next Contact Dates,” which are essentially due dates for
providing responses or updates to the taxpayers.
A total of 68 cases in our sample had processing delays or missed deadlines, including 20 cases
that had more than 1 type of delay. Some of the most significant delays involved:
   •   Initial contacts with the taxpayer – given the potentially urgent nature of TAS cases,
       taxpayers must be contacted in a timely manner. However, contacts with taxpayers were
       late by an average of 2 calendar days on 13 cases.
   •   Requests for documentation – frequently, documents such as tax returns and supporting
       schedules are needed from the taxpayer to resolve an issue. However, we identified
       16 cases for which these documents were never requested or were not requested as soon
       as reasonably practical.
   •   Next contact dates – although taxpayers were promised that they would be contacted by a
       given date, these contacts were not made or were not made in a timely manner for nine of
       the cases.
   •   Followup actions – followup dates were missed by more than 5 workdays on 8 of the
       cases. Followup dates are established to ensure that the next required case action is
       completed in a timely manner.
   •   Closing actions – although delays in closing actions generally have no taxpayer impact,
       these delays affect how new case receipts are assigned. We identified delays in closing
       cases averaging 27 calendar days on 20 cases.
Frequently, the untimely actions led to delays in resolving taxpayers’ problems and, in some
cases, taxpayers had to wait longer than necessary to receive their refunds. TAS management
attributed the untimely casework to the large case inventories held by most case advocates.




                                                                                          Page 7
                           The Taxpayer Advocate Service Needs to Improve Its
                                 Processing of Economic Burden Cases



The TAS has a policy to conduct “Early Intervention Reviews” on 25 percent of new cases
within 10 calendar days of receipt.18 These reviews are meant to ensure that case advocates are
properly analyzing the case and have a plan to address the taxpayer’s situation. While these
reviews are meant to be a proactive step to ensure that the case advocate is on the “right track,”
we could not determine if they are effective.
Further, we could not reconcile our results with those reported by the TAS quality assessment
process. In FY 2006, the TAS Quality Review function reported an overall quality rating of
89.7 percent.19 This conflicts with our results, which showed case advocates made errors that
affected taxpayers or Federal Government revenues in 141 (56.4 percent) of the 250 cases20 in
our statistical sample. We attempted to reconcile the difference by reviewing the sampling
methodology the TAS uses to select cases for its quality review process and determining if our
sample cases were also included in the TAS sample. However, the TAS quality review team did
not identify which, if any, of the cases in our sample were selected as part of its quality review
process. As a result, we were unable to determine the reasons for the difference within the scope
of this audit. We plan to conduct a separate audit in this area.

Recommendation
Recommendation 1: The National Taxpayer Advocate should develop and implement
procedures to ensure that 1) cases are worked accurately and in a timely manner; 2) all issues are
addressed; and 3) errors are detected, especially when online adjustments are made. These
policies and procedures should address the following:
     •   Before approving manual refunds, management should ensure that case advocates have
         thoroughly researched the Integrated Data Retrieval System to prevent duplicate refunds.
     •   Online adjustments should be reviewed for accuracy and to ensure that the TAS does not
         violate its delegated authorities.
     •   A formal policy should be implemented to expand the use of pre-closure reviews to
         ensure that all taxpayer issues are addressed before the taxpayer’s case is closed.

         Management’s Response: TAS management agreed with this recommendation and
         will formalize their review procedures for account adjustments, manual refunds, and
         pre-closure reviews. They intend to incorporate these policies into a Managers Guide
         that will be included in Internal Revenue Manual Part 13 in Fiscal Year 2008. In
         addition, the TAS will use “lead” case advocates to perform certain non-evaluative
         reviews, including pre-closure reviews.

18
   TAS management is allowed 30 calendar days to review systemic burden cases.
19
   The Quality Index includes both systemic burden and economic burden cases.
20
   This includes 140 cases that affected taxpayers and 4 cases in which revenues were affected. Three cases fell into
two different categories.
                                                                                                            Page 10
                      The Taxpayer Advocate Service Needs to Improve Its
                            Processing of Economic Burden Cases



More Specific Guidance Would Improve Case Processing and Help
the Taxpayer Advocate Service Identify Systemic Issues
The TAS’ mission involves both assisting individual taxpayers and identifying systemic
problems affecting large groups of taxpayers. The TAS uses various codes to help it properly
categorize individual taxpayer cases as either an economic burden or a systemic burden. It uses
other codes to help it identify trends that affect groups of taxpayers.
To ensure that taxpayers receive the most appropriate types of service, the TAS must obtain and
document specific information about the taxpayers’ problems and needs. In addition to
providing direct assistance to taxpayers on individual cases, the TAS collects information to
identify potential systemic problems that can affect numerous taxpayers. However, the guidance
and forms used by the TAS and employees on the toll-free telephone lines did not include
specific details about the types of information that should be collected from taxpayers. This
caused inconsistencies in how case advocates and referring business units collected and recorded
information and, consequently, inconsistencies in how taxpayers’ cases were processed.

Referrals to the TAS are often unclear or incomplete
Many of the referrals from the IRS toll-free telephone lines were not descriptive and did not
provide enough details about the taxpayers’ situations. In FY 2006, the TAS received
80.8 percent of its economic burden cases from the National Taxpayer Advocate and IRS
toll-free telephone lines. These “intake” employees talk to taxpayers and determine if their
issues meet the criteria for either an economic or systemic burden case.
The Internal Revenue Manual states that intake employees should not refer the case to the TAS if
they can resolve the taxpayer’s problem within 24 hours. If the intake function cannot
immediately assist the taxpayer, it must transmit the case electronically to the TAS on the
Request for Taxpayer Advocate Service Assistance (And Application for Taxpayer Assistance
Order) (Form 911). Unlike systemic burden cases, economic burden cases are not subject to
managerial review prior to submission to the TAS. Further, the TAS’ policy is to accept all
referrals from the National Taxpayer Advocate toll-free telephone line, regardless of merit.
Although the intake function should provide a description of a taxpayer’s hardship and the relief
requested, many of the case files we reviewed had little or no information pertaining to the
taxpayer’s financial circumstances or specific needs. In some cases, it was not apparent whether
the case should have been classified as an economic burden or a systemic burden issue. Better
upfront screening and documentation from the intake function would help the TAS properly
classify the case, so that taxpayers might receive the most appropriate types of service.
We are also concerned about the Form 911 itself, which the TAS updated in June 2007. Unlike
previous versions, the current Form 911 does not require a description of the impact or harm that
the tax problem is causing the taxpayer. Thus, the Form could compound the current problem.


                                                                                          Page 11
                          The Taxpayer Advocate Service Needs to Improve Its
                                Processing of Economic Burden Cases



The TAS does not always document the details of the taxpayer’s problem
During initial case analyses, case advocates did not always communicate with taxpayers to fully
identify the taxpayers’ problems or needs. If communication did occur, case advocates did not
always document it in the file. Analysis of each taxpayer’s circumstances is needed because the
TAS might be able to provide specialized or expedited service if the situation warrants it.
However, in 77 (30.8 percent) of the 250 cases we reviewed, case advocates either did not
adequately communicate with taxpayers or did not document the communication.
Many of these cases did not include the details needed to determine the extent of the taxpayer’s
economic burden. In some instances, the case history was so vague we could not determine if
the taxpayer’s issue was fully addressed and if the case was worked appropriately. We also
identified some inconsistencies in the way cases were processed. Some case advocates
automatically expedited case processing without any supporting explanation in the case history.21
In other instances, advocates processed cases using standard (non-expedite) procedures without
addressing the taxpayers’ financial needs. Thorough research and analysis when the case is
initially received could improve how case advocates process the cases.
Management did not always agree with us as to whether a taxpayer’s hardship was adequately
detailed in the case history. For example, management believed that general comments such as
“medical problems” were sufficient to expedite case processing. In addition, management
indicated that limited descriptions such as “hardship documents received” were adequate to
support the case actions taken, when supporting documentation was provided. We believe that
more specific information should be included in the case files because there are additional costs
associated with expedited processing for manual refunds and a greater potential for error, such as
issuance of duplicate refunds.
TAS management advised us that, due to high inventories, case advocates do not always have
time to document their case histories with a thorough analysis. While we acknowledge the time
constraints created by large caseloads, we do not believe that this relieves case advocates of their
responsibility to make complete assessments and to document the taxpayers’ financial situations
to ensure that cases are worked as efficiently and effectively as possible. Further, anyone
reviewing the case, such as another TAS employee or manager, should be able to determine how
a case was processed and why the chosen method was used. A poorly documented case file
could delay case resolution and cause additional contacts with the taxpayer.
Further, TAS guidance related to the initial taxpayer contact does not include specific
instructions as to the kind of information that should be collected from the taxpayer. The
Internal Revenue Manual requires case advocates to “clarify” the taxpayer’s problem and the
relief or assistance requested. We believe that more specific emphasis on the importance of


21
   For example, the TAS can expedite the processing of a taxpayer’s case by issuing a manual refund or faxing
(rather than mailing) a release of levy to a taxpayer’s employer or bank.
                                                                                                          Page 12
                           The Taxpayer Advocate Service Needs to Improve Its
                                 Processing of Economic Burden Cases



obtaining pertinent details such as dates, amounts, and consequences of the taxpayers’ burden
would improve the processing of cases and the recording and tracking of information.

The TAS might be unable to identify systemic issues due to errors in case coding
The TAS is responsible for identifying systemic issues that increase burden or create problems
for taxpayers. It also identifies trends within the IRS, such as increased collection activity, to
help project future workload within the TAS. For this purpose, it tracks the types of issues by
using a Primary Core Issue Code22 for each case in its TAMIS. However, 52 (20.8 percent) of
the 250 sample cases had incorrect Primary Core Issue Codes.
We could not always determine if identified errors were made by intake employees or by case
advocates. Many of the errors occurred because either TAS or intake employees recorded the
type of assistance requested (e.g., a refund) rather than the underlying cause of the problem
(e.g., an audit or collection procedure). The TAS has a separate code (Taxpayer Issue Code) to
identify the taxpayer’s perception of the problem/issue. We realize the underlying causes of
some problems might not be evident until the cases are being worked. However, TAS
employees are required to verify the accuracy of the codes before they close the taxpayers’ cases.
If case advocates were verifying the codes at closure, they did not recognize the incorrect codes
in our sample cases. In our opinion, TAS employees and intake employees do not understand the
proper use of case codes and might require additional training.
Based on our statistical sample results, we estimate that 14,076 cases closed in FY 2006 might be
improperly coded and might not provide meaningful data to the TAS.23 This might reduce the
TAS’ ability to identify trends and problems within the IRS. The National Taxpayer Advocate
agreed that employees might need additional training to ensure that they code cases properly. In
addition, the TAS might not identify these errors because its Casework Quality Index24 does not
capture these types of administrative errors.

Recommendations
The National Taxpayer Advocate should:
Recommendation 2: Update Internal Revenue Manual Part 13 to require that case advocates
document the details of the taxpayer’s economic burden as part of the initial case analysis in the
TAMIS. The documentation should include a recommendation as to whether the TAS should
grant the taxpayer full, partial, or no relief and include an explanation for the determination in
the TAMIS. This recommendation should be documented as soon as reasonably practical. In

22
   The Primary Core Issue Code identifies the most significant issue, policy, or process causing the taxpayer’s
problem.
23
   See Appendix IV for details.
24
   The Casework Quality Index is a numerical indicator of the extent to which TAS casework meets prescribed
quality standards.
                                                                                                           Page 13
                      The Taxpayer Advocate Service Needs to Improve Its
                            Processing of Economic Burden Cases



addition, case advocates should update the TAMIS case history if the taxpayer’s circumstances
change as the case progresses.
       Management’s Response: TAS management disagreed with this recommendation,
       stating that the details of the taxpayer’s economic burden are already documented by the
       case advocate either in the TAMIS history or on the Hardship Description/Relief
       Requested and Determination of Hardship/Recommendation for Relief screens on the
       TAMIS. Further, management contends that because case advocates are already required
       to develop an initial action plan based on the taxpayer’s circumstances, this
       recommendation would further encumber case advocates with additional administrative
       requirements.
       Office of Audit Comment: While we recognize that there are procedures for
       describing the taxpayer’s hardship in the TAMIS, we often found in our exception cases
       that there was little or no information in the TAMIS to help clarify the details of the
       taxpayer’s circumstances. Consequently, we could not always determine whether the
       TAS had provided the most appropriate types of service to taxpayers.
       Further, we believe that better documentation in the electronic case file (TAMIS) will
       help TAS management evaluate the quality of casework and ultimately provide better
       service to taxpayers. The TAMIS should include some basic details about the taxpayer’s
       situation and a description of any research conducted so users can assess whether the
       action plan and case actions are appropriate. Taxpayers often contact other employees
       (such as the National Taxpayer Advocate toll-free telephone line) to obtain information
       or status reports on their cases. These employees would not have access to the actual
       paper files, only the TAMIS history. Finally, closed TAS cases can, on occasion, get
       lost. Of the 250 cases we sampled, 4 case files were missing and 14 were incomplete.
Recommendation 3: Assist TAS management in conducting case reviews by updating the
Memorandum on Early Intervention Review Guidelines, dated February 22, 2006, to include a
requirement that the taxpayer’s financial circumstances be considered as part of the
determination of the “best approach” for each case. The National Taxpayer Advocate should
also update Internal Revenue Manual Part 13 to reflect all Early Intervention Review Guidelines.
       Management’s Response: TAS management agreed with this recommendation.
       They will update the Memorandum on Early Intervention Review Guidelines to include a
       requirement that the taxpayer’s financial circumstances be considered as part of the
       determination of the “best approach” for each case. The TAS will also update the
       Internal Revenue Manual to reflect Early Intervention Review Guidelines.
Recommendation 4: Update Form 911 to require the initiator to include a detailed
description of the taxpayer’s situation (including the taxpayer’s financial status) and the
circumstances that are creating the economic burden. This should include how the taxpayer
could be adversely affected if the requested assistance is not provided.

                                                                                        Page 14
                      The Taxpayer Advocate Service Needs to Improve Its
                            Processing of Economic Burden Cases



       Management’s Response: TAS management agreed with this recommendation.
       They will change Form 911 to include a field to enter a detailed description of the
       taxpayer’s situation, the circumstances that are creating the economic burden, and how
       the taxpayer could be adversely affected if the requested assistance is not provided.
Recommendation 5: Analyze a sample of internally referred Forms 911 to assess the
accuracy of the case acceptance criteria coding (for economic burden and systemic burden cases)
to determine if the cases were properly categorized. In addition, the review should address
whether the problem description adequately states the IRS problem and the taxpayer impact.
The results of this analysis should be used to identify case identification and referral process
training needs for employees staffing the toll-free telephone lines. Based on this analysis, the
TAS should consider requiring that the business units conduct managerial reviews of all cases
referred to the TAS.
       Management’s Response: TAS management agreed with this recommendation.
       They will analyze a sample of internally referred Forms 911 to assess the accuracy of the
       case acceptance criteria coding and the adequacy of the description of the taxpayer’s
       issue. The TAS will use this review to identify training opportunities for employees
       staffing the toll-free telephone lines. However, the National Taxpayer Advocate decided
       not to require that the IRS business units conduct managerial reviews of all cases referred
       to the TAS.
       Office of Audit Comment: We believe that the TAS should reconsider requiring
       pre-referral reviews after it conducts an analysis of a sample of referrals from the IRS
       business units because this could help to identify incomplete and inappropriate referrals
       to the TAS. Pre-referral reviews could further serve to help educate business unit
       employees on the significance of providing detailed and complete referrals, which
       ultimately should help to ensure that TAS cases are worked as expeditiously as possible.
Recommendation 6: Provide additional training to case advocates, management, and intake
personnel to explain the appropriate use of the Primary Core Issue Code.
       Management’s Response: TAS management agreed with this recommendation and
       will provide training for case advocates on identifying the root cause of a taxpayer’s
       problem as part of the annual TAS Technical Training Symposium.




                                                                                          Page 15
                           The Taxpayer Advocate Service Needs to Improve Its
                                 Processing of Economic Burden Cases



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the TAS has an effective system to
process taxpayer requests for relief due to economic burden. To accomplish our objective, we:
I.       Determined what guidance had been provided to TAS employees regarding the
         processing of Economic Burden Cases.
         A. Reviewed Internal Revenue Manual Part 13 and other pertinent policies and
            procedures issued by the National Taxpayer Advocate pertaining to processing
            Economic Burden Cases.
         B. Reviewed authorities delegated by the IRS Commissioner and the applicable Internal
            Revenue Code and Treasury Regulations pertaining to TAS authorities and
            responsibilities.
         C. Assessed the TAS’ internal controls for economic burden cases. We identified
            potential control weaknesses in the quality review process and sampling
            methodologies.
II.      Obtained an extract of Economic Burden Cases closed in FY 2006 from the TAMIS.1
         We validated the reliability of the extract by conducting a review of selected fields and
         running specialized queries. The results established that the data were valid for our
         sampling purposes.
         A. Designed an attribute sample based on a 95 percent confidence level, a ±5 percent
            desired precision rate, and a 20 percent expected error rate for a population of
            67,675 Economic Burden Cases closed in FY 2006.
         B. Used the Army Audit Software to determine the required sample size of 245 cases
            using the parameters in Step II.A. We rounded the sample size to 250 cases.
         C. Randomly sampled 250 Economic Burden Cases closed in FY 2006. We chose this
            sampling methodology so we could project the number of cases with errors to the
            universe of Economic Burden Cases.
III.     Used the sample selected in Step II.C. to determine whether the TAS correctly identified
         the taxpayer’s underlying issue(s) or problem(s) and established a course of action to
         rectify the situation.


1
 This is a database dedicated to recording, controlling, and processing taxpayer cases. It is used by the TAS to
analyze core tax issues, laws, policies, and internal IRS processes.
                                                                                                            Page 16
                      The Taxpayer Advocate Service Needs to Improve Its
                            Processing of Economic Burden Cases



       A. Determined whether the taxpayer received contact in a timely manner.
       B. Determined whether the information/documentation necessary to resolve the
          taxpayer’s issue was requested in a timely manner.
IV.    Used the sample selected in Step II.C. to determine whether the TAS correctly
       implemented the plan for relief.
       A. Determined whether the appropriate corrective action(s) were initiated and completed
          in a timely manner.
       B. Determined whether relief actions were fully implemented and addressed all pertinent
          issues to fully resolve the taxpayer’s case.
       C. Reviewed the TAMIS to determine whether the case coding pertaining to the types of
          issues involved was entered accurately.
V.     Used the sample selected in Step II.C. to determine whether a hardship determination was
       made and was accurate.
       A. Determined whether the TAMIS contained information adequate to establish if the
          TAS had evaluated and documented whether a significant hardship existed and the
          extent of the taxpayer’s hardship or economic burden.
       B. Determined whether management was involved in providing guidance in making the
          determination and/or had approved the determination that was made.
VI.    For cases identified as potential exceptions:
       A. Reviewed case-related documents to determine causes and trends.
       B. Quantified the effect by estimating the number of exceptions over the population.
       C. Discussed and confirmed causes and effects with TAS technical specialists.
       D. Discussed exception cases with TAS technical specialists.
VII.   Evaluated the TAS Quality Review rating system.
       A. Determined the TAS Casework Quality Index for FY 2006.
       B. Reviewed the sampling methodology for the quality review process.




                                                                                       Page 17
                     The Taxpayer Advocate Service Needs to Improve Its
                           Processing of Economic Burden Cases



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Diana M. Tengesdal, Acting Director
Janice M. Pryor, Audit Manager
Mary F. Herberger, Lead Auditor
Aaron R. Foote, Senior Auditor
Janice A. Murphy, Senior Auditor
Yasmin B. Ryan, Senior Auditor




                                                                                    Page 18
                    The Taxpayer Advocate Service Needs to Improve Its
                          Processing of Economic Burden Cases



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Chief, Communications and Liaison CL
Deputy National Taxpayer Advocate TA
Chief Counsel C
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluations and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: National Taxpayer Advocate TA




                                                                         Page 19
                       The Taxpayer Advocate Service Needs to Improve Its
                             Processing of Economic Burden Cases



                                                                                   Appendix IV


                                Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Taxpayer Burden – Potential; 36,003 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
We identified a population of 67,675 Economic Burden Cases closed between October 1, 2005,
and September 30, 2006. From this population, we selected a statistically valid attribute sample
of 250 cases based on a confidence level of 95 percent, a precision range of ±5 percent, and an
expected error rate of 20 percent.
We determined that 133 taxpayers (53.2 percent) have been adversely affected by TAS
actions or inactions. Therefore, we estimate that 36,003 taxpayer accounts were affected
(67,675 x 53.2 percent). The projection was made using attribute sampling, with a 95 percent
confidence level and an actual error rate of 53.2 percent. As a result, the actual precision factor
was +6.17 percent.

Type and Value of Outcome Measure:

•   Taxpayer Rights – Potential; 1,354 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
From the sample of 250 cases, we determined that 5 taxpayers (2 percent) might have been
adversely affected by TAS actions or inactions. Therefore, we estimate that 1,354 taxpayer
accounts were affected (67,675 x 2 percent). The projection was made using attribute sampling,
with a 95 percent confidence level and an actual error rate of 2 percent. As a result, the actual
precision factor was +1.73 percent.

Type and Value of Outcome Measure:

•   Taxpayer Privacy and Security – Potential; 541 taxpayer accounts affected (see page 3).

                                                                                            Page 20
       The Taxpayer Advocate Service Needs to Improve Its
             Processing of Economic Burden Cases



                                                   Appendix V

Management’s Response to the Draft Report




                                                            Page 22
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 23
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 25
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 26
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 27
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 28
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 29
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 30
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 31
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 32
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 33
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 34
The Taxpayer Advocate Service Needs to Improve Its
      Processing of Economic Burden Cases




                                                     Page 35
